3><0O AoiC

involuntary plea or of improper plea procedures do not raise a question of a void or illegal
sentence that may be addressed in a habeas proceeding. Id. Accordingly, Trammel’s claim of
error by the trial court that accepted his plea of nolo contendere was not within the purview
of the remedy. The writ cannot be issued to correct irregularities that a defendant could have
raised during that plea proceeding. Id.
Affirmed.
HART, J., dissents.
JOSEPHINE Linker Hart, Justice, dissenting. I dissent. First, as I have observed
before, the majority’s position that Arkansas habeas relief should be available only when the
circuit court lacked jurisdiction or when a commitment order is facially invalid is incorrect.
Stephenson v. Kelley, 2018 Ark. 143, 544 S.W.3d 44 (Hart, J., dissenting). But in this case,
even under the majority’s narrow conception of habeas corpus, Trammel chins the pole.
The majority incorrectly limits Trammel’s argument—he is not just arguing that the
prosecution failed to offer any evidence of criminal history at his plea hearing. Trammel
argues that his commitment order subjects him to an enhancement while simultaneously
reflecting that he has a criminal-history score of zero, i.e., his commitment order is invalid
on its face. The majority opinion does not address this problem, which appears to be an
entirely meritorious basis for issuing the writ.
I dissent.

4

C-tf LvAY C.GMC^ ,cf CY\\

.Ccwrt^, kvfero&s. fvApr

X

2019DEC23 AMII-32
JOSEPHINE GRIFFIN
CHICOT/CO. CIRCUIT CLERK

IN THE CIRCUIT COURT OF CHICOT COUNTY, ARKANSAS
CIVIL DIVISION
PETITIONER

MAURICE TRAMMELL, SR., ADC #171186
NO. CV-2019-135-3

VS.

WENDY KELLEY,
ADC - DIRECTOR

RESPONDENT
ORDER

Trammell's writ is denied. Habeas writs are entertained only if the Judgment and
Commitment is defective on its face, or the Court was without jurisdiction.
Trpimme.11 pled no contest - same as guilty — and contends here that the State
amended three (3) days before his plea to allege his habitual status. The Judgment and
Commitment reflects his habitual status, and the State was not required to offer evidence
of priors, because of Trammell’s plea.
Petition denied.
The Clerk is directed to provide a copy of this order to all parties.
IT IS SO ORDERED.

ROBERT BYNUM GIBSON, JR.
CIRCUIT JUDGE
DATE:
cc:

Petitioner
Respondent
TCA

l:Ci

I °[

